Law office
HENRY L. KLEIN
ATTORNEY AND COUNSELOR AT LAW
201 St. Charles Avenue
Suite 2501
NEW ORLEANS, LOUISIANA 70113-1103

henryklein44@gmail.com

Telephone: (504) 599-5661 Cellular: (504) 439-0488
September 24, 2021

The Honorable Scott S. Harris

Clerk of Court

The Supreme Court of the United States

One First Street NE

Washington, D.C. 20543
Rule 22.4 Submission to Justice Sonia SOTOMAYOR

Dear Mr. Harris:

On September 23, 2021, at Docket 21A41, Justice Samuel A. ALITO, Jr. denied a
Rule 22 Emergency Application filed on behalf of Regina B. Heisler. Pursuant to Supreme
Court Rule 22.4, you are respectfully asked to submit the denied Application to Justice Sonia
SOTOMAYOR. Mindful that renewals are disfavored, the denied Application squarely
addresses Justice SOTOMAYOR’s concurrence in Chicago v. Fulton, 141 S. Ct. 585 (2021):

I write separately to emphasize that the Court has not decided
whether and when §362(a)’s other provisions may require a
creditor to return a debtor’s property. Those provisions stay,
among other things, “any act to create, perfect, or enforce any
lien against property of the estate” and “any act to collect,
assess, or recover a claim against [a] debtor” that arose prior to
bankruptcy proceedings.

Because Justice SOTOMAYOR referenced a “...gap left by the Court's ruling

today...”, this is more an opportunity to fill the gap identified than a disfavored rehash.

 
The Honorable Scott S. Harris page 2
As required by Rule 22.4, 10 copies of the original application, replicated in totidem

verbis, are provided with proof of service herein'. Reasonable expedition is requested.

 

Respectfully yours,

  

=~

 

enry L. Klein (Supreme Court Bar 99146)
201 St. Charles Avenue
Suite 2501
New Orleans, LA 70170
504-439-0488
henryklein44@gmail.com

PROOF OF SERVICE
I, Henry L. Klein, Declare Under Penalty of Perjury that I authored all pleadings in
connection with Regina Heisler’s defenses against Girod LoanCo, LLC and Girod REO, LLC

and all statements are true and that I have this 24" day of September, noticed counsel for the

 

1 “A Justice denying an application will note the denial thereon. . . . the party making the
application may renew it to any other Justice, subject to the provisions of this Rule. ... a
renewed application is not favored. A renewed application is made by a letter to the
Clerk, designating the Justice to whom the application is to be directed, and accompanied
by 10 copies of the original application and proof of service as required by Rule 29.”
Rule 22.4 (truncated).
